                                                                         Semiannual
                                                                         Report to Congress
                                                                         October 1, 2012 to
                                                                         March 31, 2013




                                                             Office Of
                                                             inspectOr General




        Additional copies of this report may be obtained

        by contacting the Office of Inspector General at

        202.551.6061. This report is also available on the               U.S. SeCURITIeS And

                                                                         exChAnGe COMMISSIOn
        Inspector General’s website at www.sec-oig.gov.




OIG SAR cover_final.indd 1                                                                     5/2/13 3:51 PM
                         Office Of inspectOr General

Semiannual RepoRt to CongReSS
                   O c tO b e r 1 , 2 01 2 – M a r c h 3 1 , 2 01 3




 T
         he mission of the Office of Inspector General (OIG) is to promote the integrity,
         efficiency, and effectiveness of the critical programs and operations of the United
         States (U.S.) Securities and Exchange Commission (SEC or Commission). This
 mission is best achieved by having an effective, vigorous, and independent office of
 seasoned and talented professionals who perform the following functions:

 •	   Conducting	independent	and	objective	audits,	evaluations,	investigations,	and	other	
      reviews of SEC programs and operations;
 •	   Preventing	and	detecting	fraud,	waste,	abuse,	and	mismanagement	in	SEC	programs	
      and operations;
 •	   Identifying	vulnerabilities	in	SEC	systems	and	operations	and	recommending	
      constructive solutions;
 •	   Offering	expert	assistance	to	improve	SEC	programs	and	operations;
 •	   Communicating	timely	and	useful	information	that	facilitates	management	decision	
      making and the achievement of measurable gains; and
 •	   Keeping	the	Commission	and	Congress	fully	and	currently	informed	of	significant	
      issues and developments.




                                                    OCTOBER 1, 2012–MARCH 31, 2013             |   i
                                  ContentS



MessaGe frOM the inspectOr General . . . . . . . . . . . . . . . . . . . . . . . . . . 1



ManaGeMent and adMinistratiOn . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

Agency Overview . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

OIG Staffing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3



cOnGressiOnal testiMOnY, requests, and briefinGs . . . . . . . . . . . . . . . . . 4



advice and assistance prOvided tO the aGencY. . . . . . . . . . . . . . . . . . . . 5

Employee	Suggestion	Program . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

OIG Outreach . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5



cOOrdinatiOn with Other Offices Of inspectOr General . . . . . . . . . . . . . 6



audits and evaluatiOns . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

Overview . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    .   .   .   .   .   .   .   .   .   .   . 7

   Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   .   .   .   .   .   .   .   .   .   .   . 7

   Evaluations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    .   .   .   .   .   .   .   .   .   .   . 7

Audits and Evaluations Conducted . . . . . . . . . . . . . . . . . . . . . .      .   .   .   .   .   .   .   .   .   .   . 7

   SEC’s Controls Over Sensitive/Nonpublic Information Collected and

        Exchanged with the Financial Stability Oversight Council and

        Office of Financial Research (Report No. 509) . . . . . . . . . .         . . . . . . . . . . . 7

   Evaluation of the SEC’s Whistleblower Program (Report No. 511) . .             . . . . . . . . . . . 8

    2012 Federal Information Security Management Act (FISMA)

        Executive Summary Report (Report No. 512) . . . . . . . . . . . . . . . . . . . . . . 9

    Audit of SEC’s Controls over Support Service, Expert, and

        Consulting Service Contracts (Report No. 513) . . . . . . . . . . . . . . . . . . . . . 9

    Audit of the SEC’s Filing Fees Program (Report No. 514) . . . . . . . . . . . . . . . . . 10

    Review of the SEC’s Systems Certification and Accreditation

        Process (Report No. 515) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

    Inspector General’s Report of the U.S. Securities and Exchange

        Commission’s Fiscal Year 2012 Compliance with the Improper

        Payments Elimination and Recovery Act . . . . . . . . . . . . . . . . . . . . . . . . 11





                                                      OCTOBER 1, 2012–MARCH 31, 2013                                             |   iii
      Pending	Audits	and	Evaluations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
          Hiring Practices for Senior Level Positions at the SEC . . . . . . . . . . . . . . . . . . . 11
          The SEC Rulemaking Procedures and Current Guidance on
              Economic Analysis in Rulemakings . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
          Government Purchase Card and Convenience Check Operations and
             Practices at the SEC . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

      investiGatiOns. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
      Overview . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         . . . . . 13
      Investigations and Inquiries Conducted . . . . . . . . . . . . . . . . . . . . . . . .                           . . . . . 13
          Follow-up Investigation Relating to Forensic Analysis of
               Division of Trading and Markets Laptops (Report No. OIG-577) . . . . .                                  . . . . . 13
          Allegations of Potential Stalking, Harassment, and Inappropriate
               Touching (Report No. OIG-579) . . . . . . . . . . . . . . . . . . . . . .                               . . . . . 14
          Alleged Misuse of Federal Government Resources, Failure to Protect
               Sensitive Government Information, and Circumvention of Information
               Technology Procedures (Report No. OIG-580) . . . . . . . . . . . . . . .                                . . . . . 14
          Alleged Violations of Federal Travel Regulation by Employee Participating in a
               Long-Distance Telework Arrangement (Report No. OIG-584) . . . . . .                                     .   .   .   .   . 15
          Allegation of Improper Promotion (PI 11-38). . . . . . . . . . . . . . . . . . .                             .   .   .   .   . 15
          Time and Attendance Violations in SEC Regional Office (PI 11-40) . . . . . . .                               .   .   .   .   . 16
          Allegations of Procurement Violations (PI 12-11) . . . . . . . . . . . . . . . . .                           .   .   .   .   . 16
          Complaints of Waste, Mismanagement, and Conflicts of Interest in a
               Division of Enforcement Computer Lab (PI 12-20) . . . . . . . . . . . . .                               . . . . . 16


      review Of leGislatiOn and reGulatiOns. . . . . . . . . . . . . . . . . . . . . . . . 17


      ManaGeMent decisiOns . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
      Status of Recommendations with No Management Decisions .         .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   . 18
      Revised Management Decisions . . . . . . . . . . . . . . . .     .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   . 18
      Agreement with Significant Management Decisions . . . . . .      .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   . 18
      Instances Where Information was Refused . . . . . . . . . . .    .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   . 18




iv   |		OIG	SEMIANNUAL	REPORT	TO	CONGRESS
tables . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

Table 1 List of Reports: Audits and Evaluations. . . . . . . . . . . . .     . . . . . . . . . . . . 19

Table	2		 Reports	Issued	with	Costs	Questioned	or	Funds	Put	to	
             Better Use (Including Disallowed Costs) . . . . . . . . . .     . . . . . . . . . . . . 19

Table 3 Reports with Recommendations on Which Corrective Action

             Has Not Been Completed. . . . . . . . . . . . . . . . . .       . . . . . . . . . . . . 20

Table 4 Summary of Investigative Activity . . . . . . . . . . . . . . . .    . . . . . . . . . . . . 25

Table 5 Summary of Complaint Activity. . . . . . . . . . . . . . . . .       . . . . . . . . . . . . 26

Table 6 References to Reporting Requirements of the

             Inspector General Act . . . . . . . . . . . . . . . . . . . .   . . . . . . . . . . . . 27



appendix a. peer reviews Of OiG OperatiOns . . . . . . . . . . . . . . . . . . . . . 29

Peer	Review	of	the	SEC	OIG’s	Audit	Operations	 . . . . . . . . . . . . . . . . . . . . . . . . 29

Peer	Review	of	the	SEC	OIG’s	Investigative	Operations . . . . . . . . . . . . . . . . . . . . . 29





                                                      OCTOBER 1, 2012–MARCH 31, 2013                       |   v
meSSage
fRom the inSpeCtoR geneRal


                                    I
                                          am pleased to present this Semiannual Report to
                                          Congress as Inspector General (IG) of the U.S. Securities
                                          and Exchange Commission (SEC or Commission).
                                    This report describes the work of the SEC Office of Inspector
                                    General (OIG) for the period from October 1, 2012, to
                                    March 31, 2013. It also reflects our dual responsibility to
                                    report independently to both the Commission and Congress.
     The audits, reviews, and investigations described illustrate OIG efforts to promote the
     efficiency and effectiveness of the SEC.

     As an initial matter, I would like to take this oppor­   Consequently, OIG capabilities and effectiveness
     tunity to thank the Honorable Jon T. Rymer for his       have been reduced. As a result, one of my top
     dedicated service to the OIG and the Commission.         priorities for the upcoming year is to increase the
     He is the Inspector General for the Federal Deposit      OIG’s	capabilities	by	rebuilding	the	OIG.	I	am	
     Insurance Corporation and from May 30, 2012,             working closely with the SEC Office of Human
     until January 31, 2013, concurrently served as the       Resources (OHR) to fill the leadership and critical
     SEC Interim IG. The OIG is grateful for his leader­      positions as quickly as possible. After the OIG lead­
     ship and guidance during a time of transition.           ership team is in place, we will methodically review
                                                              our business processes and retool as necessary to
     On February 11, 2013, I began my tenure as the           make the OIG a more effective, responsive entity.
     SEC IG, leading an office with talented staff fac­
     ing significant challenges. The OIG has operated         Notwithstanding the challenges faced by the OIG
     without a permanent leader for more than a year          during this semiannual reporting period, the OIG
     and without the key senior leadership positions of       staff is committed to promoting the efficiency and
     Deputy IG and Assistant IG for Investigations for        effectiveness	of	the	SEC’s	programs	and	operations.	
     several months. Additionally, the office lacked          During the reporting period, the OIG Office of
     necessary audit and investigative staffing levels.       Audits issued seven reports, including a statutorily-


                                                              OCTOBER 1, 2012–MARCH 31, 2013                  |   1
mandated	evaluation	of	the	SEC’s	whistleblower	         In	closing,	the	OIG’s	mission	is	to	promote	the	
program;	an	audit	on	the	SEC’s	controls	over	           integrity, efficiency, and effectiveness of SEC pro­
support service, expert, and consulting service         grams and operations, and to report our findings
contracts;	and	an	audit	of	the	SEC’s	filing	fees	       and recommendations to the agency and Congress.
program. Further, during the reporting period, the      The OIG will improve its efficiency and effec­
Office of Audits worked with SEC management             tiveness through organizational and procedural
to close 47 recommendations arising out of OIG          changes and by growing our staff resources. We
reports. In the upcoming reporting period, the          will also work collaboratively with the SEC man­
Office of Audits will issue two reports requested by    agement without yielding independence to assist
Congress related to the economic analyses per­          the agency in addressing the challenges it faces in its
formed by the SEC in its rulemaking processes.          unique and important mission to protect investors,
                                                        maintain fair, orderly, and efficient markets, and
The OIG Office of Investigations completed 5            facilitate capital formation.
investigations and 29 inquiries during the reporting
period, including the forensic analysis of certain      I appreciate the significant support the Office has
Division of Trading and Markets laptops and an          received from Congress and the Commission.
inquiry into allegations of procurement violations.     We look forward to working closely with the
Our investigative reports and memoranda resulted        SEC Chairman, Commissioners, employees, and
in one referral to the agency for consideration of      Congress to increase efficiency and effectiveness
appropriate administrative action, three referrals to   in SEC programs and operations.
the OIG Office of Audits for consideration of audit
follow-up work, and specific recommendations for
improvement in agency policies and procedures.

                                                                                Carl W. Hoecker
                                                                                Inspector General




2   |		OIG	SEMIANNUAL	REPORT	TO	CONGRESS
                            management and

                             adminiStRation


aGencY Overview                                           tion	Corporation	(SIPC).	While	about	2,000	smaller	



T
         he	SEC’s	mission	is	to	protect	investors;	       investment advisers transitioned to state regulation
         maintain fair, orderly, and efficient markets;   under the Dodd-Frank Wall Street Reform and
         and facilitate capital formation. The SEC        Consumer	Protection	Act	(Dodd-Frank	Act),	the	
strives to promote a market environment that is           SEC has gained responsibility for directly overseeing
worthy	of	the	public’s	trust	and	characterized	by	        approximately 1,500 larger private fund advisers,
transparency and integrity. Its core values consist of    including hedge fund advisers.
integrity, accountability, effectiveness, teamwork,
fairness,	and	commitment	to	excellence.	The	SEC’s	        In order to accomplish its mission, the SEC is orga­
goals are to foster and enforce compliance with the       nized into 5 main divisions (Corporation Finance;
federal securities laws; establish an effective regula­   Enforcement; Investment Management; Trading and
tory environment; facilitate access to the information    Markets; and Risk, Strategy, and Financial Innova­
investors need to make informed investment deci­          tion)	and	23	functional	offices.	The	Commission’s	
sions;	and	enhance	the	Commission’s	performance	          headquarters is in Washington, D.C., and there are
through effective alignment and management of             11 regional offices located throughout the country.
human resources, information, and financial capital.      As of September 30, 2012, the SEC employed 3,792
                                                          full-time equivalents (FTE), consisting of 3,752
SEC staff monitor and regulate a securities industry      permanent and 40 temporary FTEs.
comprising more than 35,000 registrants, includ­
ing approximately 9,500 public companies, 11,800          OiG staffinG
investment advisers, approximately 4,200 mutual           On February 11, 2013, Carl W. Hoecker was sworn
funds, and about 5,400 broker-dealers, as well as         in as the SEC IG. From May 30, 2012, until January
national securities exchanges and self-regulatory         31, 2013, Jon T. Rymer served as the Interim IG.
organizations (SRO), 450 transfer agents, 17
national securities exchanges, 9 registered clearing      Two senior leadership positions of Deputy IG and
agencies, and 9 credit rating agencies. Additionally,     Assistant IG for Investigations have not been filled.
the	agency	has	oversight	responsibility	for	the	Public	   Additionally, the office lacks necessary audit and
Company	Accounting	Oversight	Board	(PCAOB),	              investigative staffing levels. Although the OIG
the Financial Industry Regulatory Authority               hired two supervisory auditors during the reporting
(FINRA), the Municipal Securities Rulemaking              period, filling the leadership and other vacancies are
Board	(MSRB),	and	the	Securities	Investor	Protec­         a priority for the OIG.


                                                           OCTOBER 1, 2012–MARCH 31, 2013                    |     3
             CongReSSional teStimonY,

              ReQueStS, and BRiefingS



T
       he OIG continued to keep Congress fully          On March 12, 2013, the IG testified in an oversight
       and currently informed of OIG investi­           hearing before the U.S. House of Representatives
       gations, audits, and other activities through    Subcommittee on Financial Services and General
testimony, reports, meetings, and telephonic com­       Government, Committee on Appropriations, with
munications. OIG staff briefed and had discussions      respect	to	the	OIG’s	budget	and	other	matters	of	
with Members of Congress and Congressional staff        subcommittee concern.
concerning OIG work and issues impacting the SEC
throughout the semiannual reporting period.             On March 29, 2013, the OIG responded to a
                                                        February 25, 2013, Congressional request for
On January 22, 2013, the OIG responded to a             information	relating	to	the	SEC’s	climate	change	
December 5, 2012, request from the U.S. House           initiatives.	The	OIG	described	the	SEC’s	authorities	
of Representatives Committee on Oversight and           to	govern	public	companies’	disclosures,	including	
Government Reform for information about the             those related to the effects of climate change and
OIG’s	highest	priority	recommendations	for	reduc­       noting that the laws and rules that govern the U.S.
ing waste and increasing efficiency. In the response,   securities industry are written to ensure that all
the OIG noted that the SEC has very few open and        investors––whether large institutions or private indi­
unimplemented recommendations that carry over           viduals––have access to the proper assortment of
from year to year. We noted that the Commission­        facts about an investment prior to buying it and for
ers, the SEC management, and the OIG continue a         the duration that the investment is held. The OIG
shared desire to improve SEC programs, operations,      also	highlighted	the	SEC’s	requirements	that	public	
and working relationships.                              companies disclose meaningful financial and other
                                                        material information to the public, including those
                                                        relating to the effects of climate change.




4   |		OIG	SEMIANNUAL	REPORT	TO	CONGRESS
                 adviCe and aSSiStanCe

                pRovided to the agenCY



T
       he OIG provided advice and assistance           Another suggestion related to providing informa­
       to SEC management on issues that were           tion to new employees. Specifically, the employee
       brought	to	the	OIG’s	attention	through	vari­    suggested that the SEC provide new employees with
ous means. This advice and assistance was conveyed     a guidebook to the acronyms used at the agency.
through written communications, as well as in          The OIG discussed this suggestion with OHR and
meetings and conversations with agency officials.      SEC University representatives. In response, the SEC
                                                       indicated that it would include a list of acronyms in
eMplOYee suGGestiOn prOGraM                            its new employee guide.
During this six-month reporting period, the OIG
received nine suggestions and four allegations         OiG Outreach
through	the	Employee	Suggestion	Program.	In	one	       The IG regularly met with the Chairman, Commis­
instance, an employee suggested that the default       sioners, and SEC division and office senior officers
settings on all SEC computers should be set to two-    to foster open communications at all levels between
sided printing and that employees should have to       the OIG and the agency. This effort will ensure that
manually select one-sided printing when necessary.     the OIG is kept up to date on significant matters
The employee stated that this would result in SEC      relevant to OIG work. This regular communication
cost savings and be environmentally friendly. The      will also allow OIG and agency management to
OIG recommended that the SEC alert employees           work cooperatively in identifying the most impor­
that double-sided printing is available and provide    tant areas for OIG work, as well as the best means
general instructions for those who wish to make        of addressing the results of that work.
double-sided printing their default setting. The SEC
responded, indicating that it preferred to leave the   On March 20, 2013, the IG participated in an SEC
decision of whether to print double-sided or single-   Town Hall meeting which all SEC employees were
sided up to individual staff members. However,         invited to attend in person or via teleconference. At
recognizing the potential for cost savings and the     this meeting, the IG explained the role of the OIG,
favorable environmental impact of reducing paper       including its audit and investigatory functions. The
usage, the SEC issued instructions for selecting       IG also responded to questions from the SEC staff
double-sided printing.                                 concerning OIG issues.




                                                        OCTOBER 1, 2012–MARCH 31, 2013                   |     5
         CooRdination With otheR

        offiCeS of inSpeCtoR geneRal



D
          uring this reporting period, the OIG             investigations and criminal investigations person­
          coordinated its activities with those of         nel, and establish criminal investigative guidelines.
          other OIGs, as required by Section 4(a)(4)       For example, the Investigations Committee assisted
of the Inspector General Act of 1978, as amended.          the CIGIE Information Technology Committee in
Specifically, the OIG participated in the meetings         developing Quality Standards for Digital Forensics
and activities of the Council of Inspectors General        to provide a framework for performing high-quality
on Financial Oversight (CIGFO), which was created          digital forensics. CIGIE issued these standards on
by Section 989E of the Dodd-Frank Act. CIGFO               November 20, 2012.
is chaired by the IG of the Department of Treasury
and is also comprised of the Inspectors General of         The OIG also contributed information to a CIGIE
the Board of Governors of the Federal Reserve Sys­         report summarizing compliance by Inspectors
tem, the Commodity Futures Trading Commission,             General	with	the	Improper	Payments	Elimination	
the Department of Housing and Urban Develop­               and Recovery Act of 2010. In addition, the OIG
ment, the Federal Deposit Insurance Corporation,           responded to numerous CIGIE surveys during the
the Federal Housing Finance Agency, the National           reporting period, including surveys related to suspen­
Credit Union Administration, the Special Inspec­           sion and debarment, annual statistical data, and the
tor	General	for	the	Troubled	Asset	Relief	Program,	        redesigned	CIGIE’s	website.	
and the SEC. Under the Dodd-Frank Act, CIGFO
is required to meet at least quarterly to facilitate the   Moreover, the Counsel to the IG participated in the
sharing of information with a focus on the concerns        activities of the Council of Counsels to the Inspectors
that may apply to the broader financial sector and         General, an informal organization of OIG attor­
ways to improve financial oversight.                       neys throughout the federal government who meet
                                                           monthly and coordinate and share information.
In addition, the IG attended meetings of the Council
of the Inspectors General on Integrity and Efficiency      Finally, the OIG Office of Audits provided support
(CIGIE) and served as the Chairman of the CIGIE            to the U.S. Commodity Futures Trading Commis­
Investigations Committee. The mission of the               sion (CFTC) OIG by participating in a technical
Investigations Committee is to advise the Inspector        evaluation panel that was convened to select a con­
General community on issues involving criminal             tractor to conduct an upcoming CFTC evaluation.




6   |		OIG	SEMIANNUAL	REPORT	TO	CONGRESS
                                    auditS and

                                   evaluationS


Overview                                                 evaluations


T
         he OIG is required by the Inspector General     The Office of Audits also conducts evaluations
         Act of 1978, as amended, to conduct audits      of SEC programs and activities. Evaluations are
         and evaluations of agency programs, opera­      generally	conducted	when	a	project’s	objectives	are	
tions, and activities. The Office of Audits focuses      based on specialty or highly technical areas, criteria
its efforts on conducting independent audits and         or data are not firm, or the information must be
evaluations	of	SEC’s	programs,	operations	and	func­      reported in a short period of time. Evaluations are
tions. The Office of Audits also hires independent       conducted in accordance with OIG policy and
contractors	and	subject	matter	experts	to	conduct	       governing CIGIE guidance.
work on its behalf.

Each year, the Office of Audits prepares an annual       audits and evaluatiOns
audit plan. The plan includes work that is selected      cOnducted
for audit or evaluation based on risk and materiality,
known or perceived vulnerabilities and inefficiencies,   sec’s controls Over sensitive/nonpublic
resource availability, and information received from     information collected and exchanged
Congress, internal SEC staff, the U.S. Government        with the financial stability Oversight
Accountability Office, and the public.                   council and Office of financial research
                                                         (report no. 509)
audits                                                   The OIG conducted an audit to follow up on SEC
Audits examine operations and financial trans­           deficiencies identified in the June 22, 2012, CIGFO
actions to ensure proper management practices            report entitled, Audit of the Financial Stability
are being followed and resources are adequately          Oversight Council’s Controls over Non-public
protected in accordance with governing laws and          Information. Specifically, the OIG examined the
regulations. Auditors collect, analyze, and verify       controls and protocols the SEC employs to ensure
data by gathering documentation, conducting              that sensitive and nonpublic information collected
interviews, and through physical inspections. The        and exchanged with the Financial Stability Oversight
Office of Audits conducts audits in accordance with      Council (FSOC), its member agencies, and the Office
the Government Auditing Standards issued by the          of Financial Research (OFR) is properly safeguarded
Comptroller General of the United States, OIG            from unauthorized disclosure. The scope of the audit
policy, and CIGIE guidance.                              did not include an inquiry into whether there was


                                                          OCTOBER 1, 2012–MARCH 31, 2013                   |   7
any unauthorized disclosure of confidential infor­      The	OIG	found	that	SEC’s	whistleblower	program	
mation. The audit found that SEC employees and          was clearly defined and user-friendly for individuals
contractors who access the SEC e-mail system using      with a basic knowledge of the securities laws, rules,
Outlook Web Access are not restricted from saving       and regulations. Further, the SEC Office of Whistle­
and uploading sensitive or nonpublic information        blower’s	outreach	efforts	had	been	strong	and	infor­
on non-SEC computers. Consequently, sensitive or        mation about the whistleblower program was easily
nonpublic information could potentially be disclosed    located on the Internet. The OIG also found the SEC
to unauthorized persons.                                generally was prompt in responding to information
                                                        provided by whistleblowers and applications for
The audit also found that the SEC has not appointed     whistleblower awards, as well as in communicating
primary information owners to oversee information       with interested parties. However, the whistleblower
received and shared with FSOC, its member agen­         program’s	internal	controls	needed	to	be	strength­
cies, or OFR. In addition, a protocol for inventory­    ened by adding performance metrics.
ing documents and ensuring they are appropriately
marked has not been fully developed. As a result,       The	award	levels	for	the	SEC’s	whistleblower	pro­
the SEC may be unable to readily identify informa­      gram were comparable to the award levels of other
tion owners and ensure documents are tracked and        federal government whistleblower programs and
marked appropriately. Finally, the audit found that     ranged from 10 to 30 percent of the monetary sanc­
the SEC contractors received network user accounts      tions	collected.	The	OIG	determined	that	the	SEC’s	
and have 30 days thereafter to complete the required    award levels are reasonable and should not change
online security awareness training. Thus, contractors   at this time.
could unintentionally mishandle or disclose sensitive
or nonpublic SEC information.                           Further, the OIG found the funding mechanism for
                                                        the	Investor	Protection	Fund	established	by	Section	
The OIG issued the final report on March 25, 2013,      922 of the Dodd-Frank Act was adequate. However,
and made five recommendations that are intended to      the OIG determined it was premature to introduce a
strengthen	the	SEC’s	protection	of	sensitive/non-       private	right	of	action	into	the	SEC’s	whistleblower	
public information that is collected and exchanged      program because it had only been in place since
with FSOC and OFR. SEC management agreed                August 2011. Finally, the OIG found the Freedom
to fully implement all of the recommendations.          of Information Act exemption added by the Dodd-
This	report	is	available	on	the	OIG’s	website	at:	      Frank Act encourages whistleblowers to disclose
http://www.sec-oig.gov	/Reports/Audits-                 information to the SEC by providing an additional
Inspections/2013/509.pdf.	                              safeguard for whistleblower confidentiality. This
                                                        exemption	had	no	significant	impact	on	the	public’s	
evaluation of the sec’s whistleblower                   ability	to	access	information	regarding	the	SEC’s	
program (report no. 511)                                regulation and enforcement of the federal securities
Section 922 of the Dodd-Frank Act required the          laws.
OIG to conduct a review of the whistleblower
protections added by that section and to report its     The OIG issued the final report on January 18,
findings no later than 30 months after the Dodd-        2013, and made two recommendations intended
Frank	Act’s	enactment	to	the	U.S.	Senate	Commit­        to strengthen the whistleblower complaint process.
tee on Banking, Housing, and Urban Affairs and          Management agreed to fully implement the recom­
the U.S. House of Representatives Committee on          mendations.	This	report	is	available	on	the	OIG’s	
Financial Services.




8   |		OIG	SEMIANNUAL	REPORT	TO	CONGRESS
website	at:	http://www.sec-oig.gov/Reports/Audits	      audit of sec’s controls over support service,
Inspections/2013/511.pdf.                               expert, and consulting service contracts
                                                        (report no. 513)
2012 federal information security                       The OIG contracted with Castro & Company, LLC
Management act (fisMa) executive                        (Castro)	to	conduct	an	audit	of	the	SEC’s	support	
summary report (report no. 512)                         service, expert, and consulting service contracts and
The OIG contracted the services of Networking           identify potential areas for improvement.
Institute of Technology, Inc. to conduct the fiscal
year	2012	FISMA	assessment	of	the	SEC’s	security	       The	audit’s	overall	objective	was	to	determine	
requirements.	The	overall	objective	of	this	project	    whether	the	SEC’s	Office	of	Acquisitions	(OA),	
was	to	assess	the	SEC’s	systems	and	incorporate	the	    when awarding support service, expert, and consult­
result	of	the	assessment	into	the	OIG’s	contribution	   ing service contracts, complied with governing laws
to	the	SEC’s	fiscal	year	2012	FISMA	report	to	OMB.	     and regulations regarding personal services contracts
In addition, the contractor independently evalu­        (PSC)	and	inherently	governmental	functions	(IGF).	
ated how SEC implemented the following security
requirements: systems inventory and the quality of      Castro found that prior to November 15, 2012,
the inventory, enterprise security architecture, data   OA did not have any written policy related to the
and boundary protection, and network security pro­      management and administration of service contracts.
tocols. The findings of the assessment included those   Further, OA did not have controls at that time that
summarized below.                                       would prevent contracting personnel or SEC staff
                                                        from forming employer-employee relationships and
OIT did not fully conduct and document continuous       entering	into	PSCs.	The	audit	identified	a	number	
monitoring and had not defined baseline configura­      of	control	deficiencies	concerning	the	SEC’s	controls	
tions or conducted configuration compliance scan­       over support service and consulting contracts. The
ning for all devices. Further, OIT neither addressed    audit also determined that OA did not take adequate
the requirements needed for a comprehensive gover­      measures in developing contract language for specific
nance structure and overall organizational security     contracts	to	describe	the	contractors’	job	duties	and	
risk management, nor addressed risk from a mission      responsibilities.
and business process perspective. Moreover, OIT
did not disable the network accounts for all users      Further,	the	audit	found	OA’s	newly	issued	guidance	
who no longer required access and could improve         and operating procedures should be strengthened
its process for documenting the interfaces between      to better ensure SEC personnel are trained and are
the	contractor/external	systems	and	SEC-operated	       provided guidance regarding their responsibilities to
systems in its system inventory.                        administer and manage contractors.

The OIG issued the final report on March 29, 2013,      The OIG issued the final report on March 29,
and made six repeat recommendations and five new        2013, and made seven recommendations intended
recommendations	to	strengthen	the	SEC’s	controls	       to	strengthen	OA’s	controls	over	support	service,	
over information security. Management agreed to         expert, and consulting service contracts. OA agreed
implement all of the recommendations. This report       to	fully	implement	all	the	report’s	recommendations.	
is	available	on	the	OIG’s	website	at:	http://www.sec-   This	report	is	available	on	the	OIG’s	website	at:	
oig.gov/Reports/Audits	Inspections/2013/512.pdf.        http://www.sec-oig.gov/Reports/Audits-
                                                        Inspections/2013/513.pdf.




                                                         OCTOBER 1, 2012–MARCH 31, 2013                   |   9
audit of the sec’s filing fees program                       istrant refunds. Furthermore, the audit determined
(report no. 514)                                             an analysis of older filing fee registrant transactions
The	OIG	contracted	with	Williams	Adley-DC,	LLP,	             needs to be completed to ensure revenue is properly
an independent public accounting firm, to conduct            recognized in OFM financial reports. OFM has
an	audit	of	the	SEC’s	refund	request	processes	and	          begun reviewing non-dormant registrant accounts,
management of dormant accounts. The overall audit            based on the expected costs and benefits for each
objectives	were	to	determine	whether:	(1)	the	Office	        account.	However,	OFM’s	review	of	non-dormant	
of Financial Management (OFM) had developed                  registrant accounts has not been fully completed.
written policies and standard operating procedures
covering oversight of the filing fees program; (2)           The OIG issued the final report on March 29,
filing fees staff are adequately trained and have the        2013, and made four recommendations intended to
requisite skills needed to carry out their duties and        strengthen	OFM’s	internal	control	over	filing	fees	
responsibilities; (3) the EDGAR Momentum system              policies and procedures. OFM agreed to implement
used to track filing fees refund requests is appropri­       all	the	report’s	recommendations.	This	report	is	
ate; (4) filing fees backlogs and dormant accounts           available	on	the	OIG’s	website	at:	http://www.sec-
are properly administered and managed; and                   oig.gov/Reports/Audits	Inspections/2013/514.pdf.
(5) filing fees refunds are disbursed by the U.S.
Department of Treasury to the appropriate regis­             review of the sec’s systems
trants as requested.                                         certification and accreditation process
                                                             (report no. 515)
The SEC receives monies through the collection of            The OIG contracted the services of Networking
securities registration, tender offer, merger, and other     Institute of Technology, Inc. (NIT) to conduct an
fees (filing fees) from registrants. The SEC records         independent	evaluation	to	assess	OIT’s	certifica­
the filing fees it collects as revenue. However, if regis­   tion and accreditation (C&A) process and deter­
trants submit payments to the SEC that are in excess         mine compliance with governing SEC policies and
of the actual fee that is due for a filing, the SEC          procedures, industry best practices, and applicable
records	the	excess	payment	in	the	registrant’s	deposit	      government laws, directives, regulations, and pub­
liability account until it is earned by the SEC for          lications.	The	overall	objective	was	to	evaluate	the	
future registrant filings. The SEC returns amounts           SEC’s	systems	C&A	process	and	determine	if	there	
in the deposit liability account to the registrant if the    are areas that need strengthening.
account has not had any activity against it for three
years, or upon request from the registrant.                  NIT	found	that	OIT’s	documentation	to	sup­
                                                             port evaluating some systems security controls
The audit found that OFM needs to strengthen its             needs improvement. The evaluation further found
Reference Guide, Chapter 80.03, Filing Fee Rev­              that contractors did not provide enough evidence
enue, August 2012, in the area of filing fees. During        within the security testing and evaluation (ST&E)
a system walk-through, the contractor determined             to demonstrate they had examined documenta­
that OFM does not have a process for confirming              tion, conducted interviews, and tested the security
registrant bank information. As a result, there is a         controls for the ST&E. Consequently, the ST&E
risk of unauthorized requests for refunds. In addi­          needed	support	to	demonstrate	the	assessor’s	method	
tion, OFM needs to strengthen its policies and proce­        for examining, interviewing, and testing security
dures related to clearing cancelled refund checks to         controls. The evaluation further found one ST&E
ensure a reasonable timeline is established. The lack        was not done for a contractor system and OIT did
of a reasonable timeline could delay processing reg­         not require ST&Es for contractor systems.




10   |		OIG	SEMIANNUAL	REPORT	TO	CONGRESS
Further, the evaluation found the designated approv­     ment	under	IPERA,	a	review	of	relevant	data	in	the	
ing authority (DAA) did not review and verify            fiscal year 2012 Agency Financial Report (AFR),
the terms and conditions set forth in the system         and	a	review	of	the	SEC’s	IPERA	Risk	Assessment	
authorization on an annual basis, as described in        Summary Report dated September 11, 2012. The
the authorization to operate letter. Also, the DAA       risk	assessment	determined	that	none	of	the	SEC’s	
reviewed and verified the terms and conditions of        programs and activities were susceptible to signifi­
SEC’s	security	controls	on	a	three-year	cycle,	rather	   cant improper payments at or above the threshold
than on the recommended continuous basis.                levels set by OMB. Furthermore, the AFR stated that
                                                         the SEC determined that implementing a payment
The evaluation also found that personally identifi­      recapture program was not cost-effective; nonethe­
able	information	(PII)	is	not	consistently	documented	   less, the SEC strives to recover overpayments that
in	some	C&A	packages.	Moreover,	PII	related	to	          are identified through other sources. Based on our
some systems was inconsistent with the reviewed          review of information OIG determined that the
C&A documentation.                                       SEC	was	in	compliance	with	IPERA	for	fiscal	year	
                                                         2012.	This	report	is	available	on	the	OIG’s	website	
Additionally,	NIT	determined	that	the	SEC’s	infor­       at:	http://www.sec-oig.gov/Reports/Other/FY2012_
mation system owners did not fully understand            IPERAComplianceReport_3.11.2013.pdf.
their roles and responsibilities in the C&A process.
Finally, the evaluation found that system owners did
not receive formal role-based IT security training       pendinG audits and evaluatiOns
or guidance based on their roles and responsibilities
as system owners and were approving C&A pack­            hiring practices for senior level
ages without having technical knowledge, which           positions at the sec
could potentially result in data not being properly      The	objectives	of	the	audit	are	to	examine	whether	
protected.                                               OHR: (1) adheres to applicable federal statutes and
                                                         regulations and has adequate policies and proce­
The OIG issued the final report on March 27,             dures covering senior level vacancies in the com­
2013, and made seven recommendations intended            petitive service and excepted service, and for senior
to	strengthen	the	SEC’s	C&A	process,	which	OIT	          officers;	(2)	ensures	the	SEC’s	hiring	and	promotion	
agreed to fully implement. This report is available      practices are carried out in a fair and consistent
on	the	OIG’s	website	at:	http://www.sec-oig.gov/	        manner, and in accordance with applicable federal
Reports/AuditsInspections/2013/515.pdf.                  statutes, regulations, and OHR policy requirements;
                                                         (3) commu-nicates its hiring authority, decisions, and
inspector General’s report of the                        changes to the appropriate personnel; (4) ensures
u.s. securities and exchange commission’s                hiring and promotion decisions are documented
fiscal Year 2012 compliance with the                     in accordance with applicable federal statutes and
improper payments elimination and                        regulations; and (5) takes action in accordance with
recovery act                                             applicable federal statutes and regulations and OHR
On March 11, 2013, the OIG completed a review of         policies pertaining to improper hiring or promotions.
the	SEC’s	compliance	with	the	Improper	Payments	
Elimination	and	Recovery	Act	of	2010	(IPERA)	for	        Fieldwork has been completed and we are drafting
fiscal year 2012. The review consisted of interviews     the report.
with	OFM	officials	regarding	the	SEC’s	risk	assess­




                                                         OCTOBER 1, 2012–MARCH 31, 2013                  |   11
the sec rulemaking procedures and                     making.	The	objectives	of	the	evaluation	are	to	
current Guidance on economic                          determine whether: (1) the economic analysis in
analysis in rulemakings                               newly proposed and final Commission rules com­
The	OIG	initiated	an	audit	to	evaluate	the	SEC’s	     plies with the principles and policies identified in
implementation of the Current Guidance on             the Current Guidance; (2) the SEC uses the Current
Economic Analysis in SEC Rulemakings (Current         Guidance for economic analyses of rulemakings of
Guidance), issued on March 16, 2012. In addition,     the	PCAOB,	FINRA,	and	other	SROs	under	the	
the OIG engaged a contractor to perform an evalu­     SEC’s	jurisdiction;	(3)	the	Current	Guidance	has	
ation	of	the	SEC’s	adherence	to	the	Current	Guid­     been effectively implemented; (4) the SEC rulemak­
ance. Both the audit and evaluation were requested    ing offices use a consistent methodology for econom­
by the Chairman of the House of Representatives       ic analyses; and (5) further improvements are needed
Committee on Oversight and Government Reform          for	the	SEC’s	rulemaking	processes	and	procedures.
(House Oversight Committee) and the Chairman of
its	Subcommittee	on	Troubled	Asset	Relief	Program	    Fieldwork	for	both	projects	has	been	completed.	
(TARP),	Financial	Services	and	Bailouts	of	Public	    The	OIG	will	issue	separate	reports	for	Phase	1	and	
and	Private	Programs	(Subcommittee	on	TARP).	         2 before the end of the next semiannual reporting
                                                      period.
On December 21, 2012, the OIG sent letters to the
Chairman of the House Oversight Committee and         Government purchase card and
the	Chairman	of	the	Subcommittee	on	TARP	outlin­      convenience check Operations and
ing	the	OIG’s	two-part	(Phase	1	and	2)	approach	to	   practices at the sec
respond to their request.                             The	OIG	commenced	an	audit	of	the	SEC’s	govern­
                                                      ment purchase card and convenience check opera­
For	Phase	1,	the	OIG	is	conducting	an	audit	that	     tions and practices as a result of requirements set
examines	the	SEC’s	rulemaking	procedures	and	         forth	in	the	Government	Charge	Card	Abuse	Preven­
guidance.	The	audit	objectives	are	to	determine	      tion	Act	of	2012.	The	objectives	of	the	audit	are	to	
whether the: (1) SEC has established and imple­       (1)	determine	whether	the	SEC’s	purchase	card	and	
mented procedures for a methodical rulemaking         convenience check programs operate effectively and
process in accordance with its Current Guidance;      are properly managed in compliance with govern­
(2) SEC developed and uses procedures to improve      ing laws and regulations, and agency policy; and (2)
the rulemaking process such as hiring additional      assess	whether	the	SEC’s	purchase	card	and	conve­
economists and implementing a systematic review       nience	check	programs’	internal	controls	have	been	
process; and (3) Current Guidance incorporates the    adequately designed, appropriately implemented,
OIG’s	and	other	commenters’	recommendations	on	       and are operating effectively to detect misuse, fraud,
SEC rulemaking.                                       waste, or abuse. We will also determine if there are
                                                      best practices or areas needing improvement.
For	Phase	2,	the	OIG	engaged	a	contractor	to	
assist	in	completing	an	evaluation	of	the	SEC’s	      Fieldwork is ongoing and we expect to issue a final
adherence to its Current Guidance in recent rule-     report by the next semiannual reporting period.




12   |		OIG	SEMIANNUAL	REPORT	TO	CONGRESS
                               inveStigationS


Overview                                                action. Those actions include: initiating an investiga­



T
        he OIG Office of Investigations is responsi­    tion, referring the matter to management, and refer­
        ble for OIG activities related to the preven­   ring the complaint to another agency. Upon com­
        tion, detection, and investigation of fraud,    pletion of an investigation, the OIG issues a report
waste, and abuse in connection with SEC programs        of investigation that sets forth the evidence obtained
and operations. The OIG investigates allegations        during the investigation. Investigative matters are
of violations of statutes, rules, and regulations and   referred to SEC management and the U.S. Depart­
other misconduct by SEC staff and contractors.          ment of Justice as appropriate. In some instances,
The misconduct investigated ranges from criminal        an OIG investigation may identify possible weak­
wrongdoing and fraud to violations of SEC rules         nesses or internal control issues requiring corrective
and policies and the Standards of Ethical Conduct       action by agency management. As a result, the OIG
for Employees of the Executive Branch. The Office       may issue a separate investigative memorandum to
of Investigations conducts its independent investiga­   management for corrective action.
tions in accordance with CIGIE Quality Standards
for Investigations and OIG Investigations policy.
                                                        investiGatiOns and inquiries
The OIG receives complaints through the OIG             cOnducted
Complaint Hotline (telephone and web-based),
e-mail, mail, and facsimile. Complaints may be made     follow-up investigation relating to forensic
anonymously by calling the Hotline, which is staffed    analysis of division of trading and Markets
and answered 24 hours a day, 7 days a week, or by       laptops (report no. OiG-577)
completing an online complaint form. In addition,       An OIG investigation completed during the pre­
OIG receives allegations from SEC employees of          vious semiannual reporting period (OIG-557)
waste, abuse, misconduct, or mismanagement within       determined that staff working in a Division of Trad­
the agency through the OIG SEC Employee Sugges­         ing and Markets computer security lab had used
tion	Program,	which	was	established	pursuant	to	        laptops that were unencrypted and did not have
Section 966 of the Dodd-Frank Act.                      virus protection during SRO and clearing agency
                                                        inspections in violation of the SEC information
The OIG reviews and analyzes all complaints             technology security policies.
received to determine the appropriate course of




                                                        OCTOBER 1, 2012–MARCH 31, 2013                   |   13
In	response	to	the	OIG’s	findings,	SEC	manage­          OHR. The contractor had received two anonymous
ment contracted with an outside forensics team          communications sent via U.S. mail to SEC head­
to conduct testing and related work on selected         quarters, which the contractor found to be offen­
laptops that lab staff had used on inspections.         sive. The contractor had also received a series of
The outside firm subsequently reported that it had      e-mail messages from the SEC employee regarding a
found no evidence of active malware operating on        purported relationship between the contractor and
those laptops. However, the firm confirmed several      another SEC employee. During the investigation,
vulnerabilities that posed a risk to SEC systems and    OHR referred to OIG additional allegations made
the data of regulated entities and offered no opinion   by the SEC employee of inappropriate touching by
with	respect	to	the	lab’s	other	laptops	and	computer	   the contractor.
devices. The firm also reported that one of the lap-
tops examined was reformatted and a new operat­         The	OIG’s	investigation	focused	on	whether	there	
ing system was installed shortly before the forensic    was any evidence of stalking or harassment under
examination.                                            the applicable laws and whether there was any evi­
                                                        dence of inappropriate touching. The OIG investi­
To ensure that appropriate, independent forensic        gation did not identify the sender of the anonymous
analysis was performed on the laptops that the firm     communications to the SEC contractor. The OIG
retained by the SEC had not examined, the OIG           found insufficient evidence to warrant a criminal
arranged for the Federal Deposit Insurance Corpo­       referral based upon the e-mail communications
ration Office of Inspector General Economic Crimes      from the SEC employee. The OIG also did not find
Unit (FDIC OIG ECU) to conduct forensic analy­          evidence that the purported inappropriate touching
sis of certain laptops and to independently verify      was unreasonable or inappropriate. As a result, the
the	results	of	the	SEC	OIT’s	testing	of	additional	     OIG determined no further action was warranted
laptops. The forensic analysis performed by FDIC        and closed its investigation.
OIG ECU and the SEC OIT found no evidence of
a breach or compromise on the additional laptops        alleged Misuse of federal Government
examined.                                               resources, failure to protect sensitive
                                                        Government information, and circumven­
Further, the investigation found that a lab informa­    tion of information technology procedures
tion technology specialist reformatted two laptop       (report no. OiG-580)
drives before the laptops were collected by OIT.        The OIG investigated a complaint alleging that an
However, the OIG did not find evidence that the         SEC headquarters employee had failed to appropri­
drives were reformatted in an effort to interfere       ately secure sensitive financial industry data in viola­
with	OIG’s	ongoing	investigation	of	the	computer	       tion of SEC policy and had provided unauthorized
security lab. The OIG also did not find evidence        access to this data to other employees.
that lab management had directed, or was aware of,
the reformatting.                                       The	complainant	also	alleged	that	this	employee’s	
                                                        division was attempting to improperly manage cer­
allegations of potential stalking,                      tain information technology-related services within
harassment, and inappropriate touching                  the division without the involvement of OIT.
(report no. OiG-579)
The OIG investigated allegations of potential stalk­    In addition, the OIG investigated additional
ing and harassment of an SEC contractor by an           information referred by OHR and OIT showing
SEC employee that were referred to the OIG by           that	the	employee	had	accessed	PII	for	current	and	




14   |		OIG	SEMIANNUAL	REPORT	TO	CONGRESS
former SEC employees, without the knowledge               The investigation found, however, that the telework­
and	approval	of	the	employee’s	current	supervi­           ing	employee’s	official	duty	station	was	improperly	
sors and without any apparent legitimate need for         set and, as a result, the employee was paid inaccu­
that information. Due to concerns about protecting        rately. The OIG further found that the SEC did not
the	agency’s	information,	management	placed	the	          have written policies and procedures for setting the
employee on administrative leave pending comple­          official duty station and locality pay for employees
tion of the OIG investigation.                            on long-distance telework, and that the locality pay
                                                          rates for employees on long-distance telework had
The	OIG’s	investigation	found	no	evidence	that	the	       not been determined in a consistent manner. On
employee	had	accessed	PII	data	for	any	improper	          March 25, 2013, the OIG issued an investigative
purpose. To the contrary, evidence obtained through       memorandum to management (IM-13-0001) to
e-mail searches and interviews of relevant personnel      address the deficiencies identified and, as a result,
showed that the employee had recently transferred         closed this investigation. This memorandum is
to his current division from another headquarters         available	on	the	OIG’s	website	at:	http://www.
office and, after his transfer, had continued to access   sec-oig.gov/Reports/OOI/2013	/IM-13-001(Long-
SEC	employee	PII	data	to	assist	staff	with	whom	he	       Distance-Telework).pdf.
had	been	working	in	his	previous	office	on	a	project.	
Moreover, there was no evidence that the employee         allegation of improper promotion
transmitted	sensitive	data,	including	PII,	outside	the	   (pi 11-38)
SEC. The OIG did not substantiate the remaining           The OIG conducted an inquiry into an anony­
allegations investigated.                                 mous complaint alleging that an SEC headquarters
                                                          supervisor’s	promotion	of	a	colleague	was	inappro­
As a consequence, the OIG closed its investigation        priate because it resulted from a personal friendship
and management cleared the employee to return             between the supervisor and the colleague. The com­
to work. We referred the issue of controls over           plaint also alleged that the promotion was improper
access to information when an employee transfers          because the employee who was promoted had previ­
to another division or office to the OIG Office of        ously been removed from a supervisory position due
Audits for consideration of possible future audit         to performance issues.
work.
                                                          The inquiry found evidence that the supervisor and
alleged violations of federal travel                      the colleague who was promoted were friends and
regulation by employee participating in                   had vacationed together in the past. However, based
a long-distance telework arrangement                      upon our review of hiring documentation, e-mail
(report no. OiG-584)                                      evidence and interview of the supervisor, we found
The OIG investigated an anonymous complaint               no evidence that the promotion violated federal
alleging	that	the	SEC’s	payment	of	costs	for	an	          personnel laws. Moreover, the OIG, after consulta­
employee teleworking from a remote location to            tion	with	the	SEC’s	Ethics	Office,	determined	that	
travel to and from headquarters violated the Federal      the promotion did not violate any ethics regulations.
Travel Regulation (FTR). The OIG found that the           Further, the OIG found that the allegation that the
employee’s	telework	arrangement	was	authorized	           employee had previously been removed from a
and that payment of travel expenses for the               supervisory position was not substantiated. There­
employee’s	periodic	trips	to	headquarters	did	not	        fore, the OIG determined that no further action was
violate the FTR.                                          warranted.




                                                          OCTOBER 1, 2012–MARCH 31, 2013                 |   15
time and attendance violations in sec                     The OIG did not identify evidence to substantiate
regional Office (pi 11-40)                                the allegation that the senior SEC official requested
The OIG performed an inquiry into an anonymous            that an unidentified former roommate, or anyone
complaint alleging that an SEC regional office            else,	be	added	to	the	contractor’s	team.	The	OIG	
supervisor left the office for extended periods of        also did not identify evidence to substantiate the
time,	often	during	the	regional	office’s	core	business	   allegation that the senior SEC official improperly
hours, without properly recording the time. The           influenced the technical evaluation panel to award
inquiry found evidence that the supervisor often          the contract at issue to a particular firm. While the
left the office during the day, at times for extended     senior official participated as a non-voting mem­
periods	and	during	the	regional	office’s	core	hours,	     ber of the technical evaluation team and attended
and on some occasions did not take leave for              presentations by three contracting firms, we did not
absences. The OIG further found that although the         find evidence that the senior official influenced the
supervisor had been granted schedule flexibility by       panel’s	decision.	As	a	result,	on	January	31,	2013,	
his superiors and often worked extra hours to make        the OIG issued a memorandum report to the agency
up	for	the	times	away	from	the	office,	the	SEC’s	         for informational purposes and closed this matter.
procedures for earning and using credit hours were
not followed.                                             complaints of waste, Mismanagement,
                                                          and conflicts of interest in a division of
On December 12, 2012, the OIG referred the                enforcement computer lab (pi 12-20)
matter to management for consideration of any             The OIG completed an inquiry into allegations
appropriate follow-up or administrative action.           received through the OIG Employee Suggestion
Thereafter, management counseled the supervisor           Program	Hotline	regarding	a	computer	lab	within	
concerning his time and attendance.                       the Division of Enforcement. The OIG focused its
                                                          inquiry on allegations of possible conflicts of interest
allegations of procurement violations                     on the part of a lab staff member and a contractor
(pi 12-11)                                                used by the lab, as well as waste involving laptops.
The OIG completed its inquiry into allegations            We referred other allegations of mismanagement of
of procurement violations in the award of certain         contracts and waste to the OIG Office of Audits for
work to a contractor. The inquiry arose from an           consideration of possible future audit work.
anonymous complaint that alleged a senior SEC
official requested that an unidentified former room­      The evidence obtained and reviewed during the
mate	be	added	to	a	contractor’s	team	and	inappro­         inquiry did not substantiate the conflict-of-interest
priately influenced an agency acquisition panel to        allegations. Further, the OIG did not find evidence
award the work to that contractor.                        that lab staff had access to an excessive number of
                                                          laptops	and	confirmed	that	the	lab’s	laptops	were	
                                                          equipped with appropriate encryption. As a conse­
                                                          quence, the OIG closed its inquiry.




16   |		OIG	SEMIANNUAL	REPORT	TO	CONGRESS
  RevieW of legiSlation
    and RegulationS


D
        uring this semiannual reporting period, the OIG reviewed and
        monitored the following legislation:



p.l. 112-194

Government	Charge	Card	Abuse	Prevention	Act	of	2012
	

p.l. 112-199

Whistleblower	Protection	Enhancement	Act	of	2012
	

p.l. 112-248

Improper	Payments	Elimination	and	Recovery	Improvement	Act	of	2012


p.l. 112-239

The	National	Defense	Authorization	Act	for	Fiscal	Year	2013
	




                                       OCTOBER 1, 2012–MARCH 31, 2013   |   17
                 management deCiSionS



     status Of recOMMendatiOns with nO ManaGeMent decisiOns
     Management decisions have been made on all audit reports issued before the beginning of
     this reporting period.



     revised ManaGeMent decisiOns
     no management decisions were revised during the period.



     aGreeMent with siGnificant ManaGeMent decisiOns
     the OiG agrees with all significant management decisions regarding audit
     recommendations.



     instances where infOrMatiOn was refused
     during this reporting period, there were no instances where information was refused.




18    |		OIG	SEMIANNUAL	REPORT	TO	CONGRESS
                                            taBleS
table 1. list of reports: audit and evaluations

     report number                                   title                                  date issued

         509          sec’s controls Over sensitive/nonpublic information collected and
                      exchanged with the financial stability Oversight council and
                      Office of financial research                                           3/25/2013

         511          evaluation of the sec’s whistleblower program                          1/18/2013

         512          2012 federal information security Management act
                      executive summary                                                      3/29/2013

         513          audit of sec’s controls over support service, expert and
                      consulting service contracts                                           3/29/2013

         514          audit of the sec’s filing fees program                                 3/29/2013

         515          review of the sec’s systems certification and accreditation process    3/27/2013

         n/a          inspector General’s report of the u.s. securities and exchange
                      commission’s fiscal Year 2012 compliance with the improper
                      payments elimination and recovery act                                  3/11/2013




table 2. reports issued with costs questioned or funds put to better use
(including disallowed costs)

                                                                         no. of reports         value

a. reports issued prior to this period

      for which no management decision had been made on any
      issue at the commencement of the reporting period                          0               $0

      for which some decisions had been made on some issues at the
      commencement of the reporting period                                       0               $0

b.    reports issued during this period                                          0               $0

                                           total of categories a and b           0               $0

c.    for which final management decisions were made during this period          0               $0

d.    for which no management decisions were made during this period             0               $0

e.    for which management decisions were made on some issues
      during this period                                                         0               $0

                                           total of categories c, d, and e       0               $0




                                                             OCTOBER 1, 2012–MARCH 31, 2013         |    19
table 3. reports with recommendations on which corrective action has not been completed
during this semiannual reporting period, sec management provided the OiG with documentation to
support their implementation of OiG recommendations. in response, the OiG closed 51 recommendations
related to 13 Office of audits and Office of investigations reports. the following table lists recommenda­
tions open 180 days or more.

 report number and title         issue date                   recommendation summary

474 - assessment of the          3/29/2010      require that a bounty file (hard copy or electronic)
sec’s bounty program                            be created for each bounty application, which should
                                                contain at a minimum the bounty application, any cor­
                                                respondence with the whistleblower, documentation of
                                                how the whistleblower’s information was utilized, and
                                                documentation regarding significant decisions made
                                                with regard to the whistleblower’s complaint.
480 - review of the sec’s        9/27/2010      update form 13f to a more structured format, such as
section 13(f) reporting                         extensible Markup language, to make it easier for users
requirements                                    and researchers to extract and analyze section 13(f)
                                                data.
482 - Oversight of and           6/29/2011      in plans for implementing section 965 of the dodd­
compliance with condi­                          frank wall street reform and consumer protection act,
tions and representations                       develop procedures to coordinate examinations with
related to exemptive                            those conducted by the Office of compliance inspec­
Orders and no-action                            tions and examinations and, as appropriate, include
letters                                         provisions for reviewing for compliance with the condi­
                                                tions in exemptive orders and representations made in
                                                no-action letters on a risk basis.
482 - continued                                 in connection with monitoring efforts, include compli­
                                                ance with the conditions and representations in signifi­
                                                cant exemptive orders and/or no-action letters issued
                                                to regulated entities as risk considerations.
485 - assessment of the          9/29/2010      evaluate risk assessment processes for scoring risk
sec’s privacy program                           to ensure that the Office of information technology
                                                adequately weighs all appropriate factors, including the
                                                identification of risk levels by vendors.
485 - continued                                 implement an agency-wide policy regarding shared
                                                folder structure and access rights, ensuring that only
                                                the employees involved with a particular case have
                                                access to that data. if an employee backs up additional
                                                information to the shared resources, only the employee
                                                and his or her supervisor should have access.
485 - continued                                 ensure personal storage tab (pst) files are saved to a
                                                protected folder.
489 - 2010 annual fisMa           3/3/2011      complete a logical access integration of the homeland
executive summary report                        security presidential directive 12 card no later than
                                                december 2011, as reported to the Office of Manage­
                                                ment and budget on december 31, 2010.




20   |		OIG	SEMIANNUAL	REPORT	TO	CONGRESS
table 3. reports with recommendations, continued
recommendations Open 180 days or more
 report number and title      issue date                recommendation summary

491 - review of alternative   9/28/2011    in developing the new human capital directive, work
work arrangements, Over­                   with the national treasury employees union to deter­
time compensation, and                     mine whether additional alternative work schedules,
cOOp-related activities at                 such as the gliding, variable day, variable week, three-
the sec                                    day workweek, and Maxiflex options described in the
                                           Office of personnel Management handbook on alterna­
                                           tive work schedules, should be adopted as options for
                                           sec employees.
491 - continued                            negotiate revisions to the language in the collective
                                           bargaining agreement between the commission and
                                           the national treasury employees union with respect to
                                           the use of credit hours by employees working con­
                                           forming schedules, ensuring that the revised language
                                           conforms with applicable law.
492 - audit of sec’s          8/2/2011     develop and implement a mechanism to reward
employee recognition                       employees for superior or meritorious performance
program and recruitment,                   within their job responsibilities through lump-sum per­
relocation, and retention                  formance awards.
incentives
497 - assessment of sec’s     8/11/2011    ensure that security controls configurations that are
continuous Monitoring                      applied in the production environment are identical
program                                    with those applied in the testing environment.
497 - continued                            develop and implement written procedures to ensure
                                           consistency in the commission’s production and testing
                                           environments. these procedures should detail the soft­
                                           ware and hardware components in both environments
                                           and specify the actions required to maintain consistent
                                           environments.
497 - continued                            ensure that tapes are handled appropriately.
500 - assessment of sec’s     3/16/2012    identify capacity requirements for all servers, ensure
system and network logs                    sufficient capacity is available for the storage of audit
                                           records, configure auditing to reduce the likelihood that
                                           capacity will be exceeded, and implement a mechanism
                                           to alert and notify appropriate commission office/divi­
                                           sions when log storage capacity is reached.

500 - continued                            review and update all logging policies and procedures
                                           consistent with the policy’s review interval requirements
                                           and retain evidence of its reviews and any updates to
                                           the policy.
501 - 2011 annual fisMa       2/2/2012     develop and implement a detailed plan to review and
executive summary report                   update Oit security policies and procedures and to cre­
                                           ate Oit security policies and procedures for areas that
                                           lack formal policy and procedures.




                                                  OCTOBER 1, 2012–MARCH 31, 2013                   |   21
table 3. reports with recommendations, continued
recommendations Open 180 days or more
 report number and title     issue date                 recommendation summary

501 - continued             2/2/2012      develop a comprehensive risk management strategy
                                          in accordance with national institute of standards and
                                          technology’s (nist) Guide for Applying the Risk Man­
                                          agement Framework to Federal Information Systems:
                                          A Security Life Cycle Approach, which will ensure that
                                          management of system-related security risks is con­
                                          sistent with the sec’s mission/business objectives and
                                          overall risk strategy.
501 - continued                           update risk management policy to include language
                                          regarding developing a comprehensive governance
                                          structure and ensure that management of system-
                                          related security risks is consistent with the sec’s mis­
                                          sion/business objectives and overall risk strategy.
501 - continued                           develop and implement a formal risk management
                                          procedure that identifies an acceptable process for
                                          evaluating system risk consistent with the commission’s
                                          mission or business objectives and overall risk strategy.
501 - continued                           develop and implement formal policy that addresses
                                          tailoring baseline security controls sets.
501 - continued                           determine whether to perform the tailoring process at
                                          the organization level for all information systems (either
                                          as the required tailored baseline or as the starting point
                                          for system-specific tailoring) at the individual informa­
                                          tion system level, or by using a combination of organi­
                                          zation-level and system-specific approaches.
501 - continued                           tailor a baseline security controls set (with rationale) for
                                          applicable systems in accordance with nist’s Guide for
                                          Applying the Risk Management Framework to Federal
                                          Information Systems: A Security Life Cycle Approach,
                                          and NIST’s Recommended Security Controls for Federal
                                          Information Systems and Organizations.
501 - continued                           review and document the current standard baseline
                                          configuration, including identification of approved
                                          deviations and exceptions to the standard.
501 - continued                           conduct compliance scans of information technology
                                          devices, according to the organizationally defined fre­
                                          quency in the policy and procedures, to ensure that all
                                          devices are configured as required by Oit’s configura­
                                          tion management policy and procedures.
501 - continued                           complete the implementation of the technical solu­
                                          tion for linking multi-factor authentication to personal
                                          identity verification cards for system authentication and
                                          require use of the cards as a second authentication
                                          factor by december 2012.




22   |		OIG	SEMIANNUAL	REPORT	TO	CONGRESS
table 3. reports with recommendations, continued
recommendations Open 180 days or more
 report number and title     issue date                 recommendation summary

502 - review of the sec’s   4/23/2012     complete the review of the agency-wide continuity of
continuity of Operations                  operations program (cOOp) to ensure the sec’s cOOp
program                                   is comprehensive, cohesive, and in compliance with
                                          federal guidance.
502 - continued                           revise and update the sec’s continuity of operations
                                          program policies and procedures to ensure they are
                                          comprehensive, complete, and up-to-date.
502 - continued                           update, revise, and finalize all cOOp documents,
                                          including the overall headquarters cOOp plan, indi­
                                          vidual division/office cOOp plans, regional office cOOp
                                          supplements, disaster recovery plans, business continu­
                                          ity plans and business impact analyses, and pandemic
                                          plans supplements.
502 - continued                           ensure that vital records and lines of succession are
                                          properly identified, documented and readily available
                                          during continuity events.
502 - continued                           revise the sec system recovery time objectives to
                                          specify more realistic timeframes, based on the ability
                                          to transition to the alternate site, and then determine
                                          acceptable recovery times.
502 - continued                           add elements to contracts and service level agreements
                                          for externally hosted systems to provide appropriate
                                          methods by which the sec can obtain assurance that
                                          appropriate disaster recovery plan testing is performed
                                          on mission essential and federal information security
                                          Management act reportable systems and to ensure the
                                          systems are able to function during unscheduled events.
502 - continued                           include elements of testing from an alternate site in the
                                          regional office continuity of operations program, disas­
                                          ter recovery, and business continuity plan testing on a
                                          periodic basis to ensure the necessary capability and
                                          functionality for regional office activities are in place.
502 - continued                           categorize essential personnel according to necessary
                                          functions, based on various realistic scenarios (such as
                                          headquarters or Operations center locations becoming
                                          inaccessible or not operational, including traffic condi­
                                          tions that would affect the scenario).
502 – continued                           specify when commission personnel are to telework
                                          after an event and when they must go to the designat­
                                          ed alternate locations instead of teleworking.




                                                 OCTOBER 1, 2012–MARCH 31, 2013                  |     23
table 3. reports with recommendations, continued
recommendations Open 180 days or more
 report number and title         issue date                 recommendation summary

502 - continued                 4/23/2012     ensure that the designated headquarters alternate
                                              worksites are ready for use and contain sufficient equip­
                                              ment and technology resources. in addition, cOOp plan
                                              documentation should be revised to reflect current
                                              space availability and needs, taking into account the
                                              potential for telework and remote access.
502 - continued                               ensure that designated alternate worksite locations are
                                              visited and tested periodically to ensure ready access
                                              and use.
502 - continued                               clearly define in the continuity of operations, disaster
                                              recovery, and business continuity plan documentation
                                              the alternate worksite or telework locations for both
                                              essential and non-essential personnel.
502 - continued                               ensure that continuity of operations, disaster recovery,
                                              and business continuity plan training occur prior to
                                              annual tests exercises or events as recommended by
                                              nist special publication 800-84, Guide to test, train­
                                              ing, and exercise programs for information technology
                                              plans and capabilities, in order to ensure that individu­
                                              als are prepared for their specific roles during a disaster
                                              recovery event.
502 - continued                               ensure that an appropriate and updated Memoranda
                                              of agreement, Memoranda of understanding and
                                              service-level agreements are executed to provide for
                                              alternate work site locations, capabilities, and accom­
                                              modations that may be necessary to ensure continuity
                                              of operations.
505 – sec’s records           9/30/2012       develop a vital records program that includes processes
Management practices                          and procedures to establish and maintain the sec’s vital
                                              records in accordance with applicable federal regula­
                                              tions and the national archives and records adminis­
                                              tration’s guidance on vital records management.
pi-09-05 – sec access         2/22/2010       ensure, on a commission-wide basis, that all regional
card readers in regional                      offices are capable of capturing and recording building
Offices                                       entry and exit information of commission employees.
rOi-505 – failure to timely   2/26/2010       ensure as part of changes to complaint handling system
investigate allegations of                    that databases used to refer complaints are updated to
financial fraud                               accurately reflect status of investigations and identity
                                              of staff.
rOi-544 – failure to          1/20/2011       take immediate measures to determine whether every
complete background                           Oit employee and contractor has been properly cleared
investigation clearance                       by a background investigation and issued an official
before Giving access to                       sec badge.
sec buildings and
computer systems




24   |		OIG	SEMIANNUAL	REPORT	TO	CONGRESS
table 3. reports with recommendations, continued
recommendations Open 180 days or more
 report number and title         issue date                recommendation summary

rOi-551 – allegations of       3/30/2011      employ technology that will enable the agency to main­
unauthorized disclosures of                   tain records of phone calls made from and received by
nonpublic information                         sec telephones.
during sec investigations
rOi-557 – investigation into   8/30/2012      require arp lab staff to fill out appropriate training
the Misuse of resources                       forms, clarify policy on continued service agreements
and violation of it security                  (csa) and consider requiring employees to sign csas
policies within the division                  for training costing more than $5,000.
of trading and Markets




                                                     OCTOBER 1, 2012–MARCH 31, 2013                |   25
Table 4. Summary of Investigative Activity

     Cases                                                              Number
     Cases Open as of 9/30/2012                                           6
     Cases Opened during 10/1/2012 - 3/31/2013                            12
     Cases Closed during 10/1/2012 - 3/31/2013                            5
     Total Open Cases as of 3/31/2013                                     13
     Referrals to Department of Justice for Prosecution                   4
     Prosecutions                                                         0
     Convictions                                                          0
     Referrals to OIG Office of Audits                                    3


     Preliminary Inquiries                                              Number
     Inquiries Open as of 9/30/2012                                       41
     Inquiries Opened during 10/1/2012 - 3/31/2013                        14
     Inquiries Closed during 10/1/2012 - 3/31/2013                       29
     Total Open Inquiries as of 3/31/2013                                26
     Referrals to Agency for Administrative Action                         1


     Disciplinary Actions (including referrals made in prior periods)   Number
     Removals (Including Resignations and Retirements)                     1
     Suspensions                                                          2
     Warnings/Other Actions                                               2




Table 5. Summary of Complaint Activity

     Complaints Received During the Period                              Number
     Complaints Pending Disposition at Beginning of Period                13
     Hotline Complaints Received                                         184
     Other Complaints Received                                           102
     Total Complaints Received                                          286
     Complaints on which a Decision was Made                             282
     Complaints Awaiting Disposition at End of Period                     17


     Dispositions of Complaints During the Period                       Number
     Complaints Resulting in Investigations                               5
     Complaints Resulting in Inquiries                                    14
     Complaints Referred to OIG Office of Audits                          5
     Complaints Referred to Other Agency Components                      120
     Complaints Referred to Other Agencies                                2
     Complaints Included in Ongoing Investigations or Inquiries           10
     Response Sent/Additional Information Requested                      48
     No Action Needed                                                    82




26    |   OIG SEMIANNUAL REPORT TO CONGRESS
table 6. references to reporting requirements of the inspector General act

  section    inspector General act reporting requirement                                      pages

  4(a)(2)    review of legislation and regulations                                                   17

  5(a)(1)    significant problems, abuses, and deficiencies                               7–11; 13–16

  5(a)(2)    recommendations for corrective action                                           7–11; 15

  5(a)(3)    prior recommendations not Yet implemented                                       20–25

  5(a)(4)    Matters referred to prosecutive authorities                                             26

  5(a)(5)    summary of instances where information was unreasonably
             refused or not provided                                                                 18

  5(a)(6)    list of OiG audit and evaluation reports issued during the period                       19

  5(a)(7)    summary of significant reports issued during the period                      7–11; 13–16

  5(a)(8)    statistical table on Management decisions with respect to questioned costs              19

  5(a)(9)    statistical table on Management decisions on recommendations that
             funds be put to better use                                                              19

  5(a)(10)   summary of each audit, inspection or evaluation report Over
             six Months Old for which no Management decision has been Made                           18

  5(a)(11)   significant revised Management decisions                                                18

  5(a)(12)   significant Management decisions with which the
             inspector General disagreed                                                             18

  5(a)(14)   appendix of peer reviews conducted by another OiG                                       29




                                                     OCTOBER 1, 2012–MARCH 31, 2013              |    27
               appendix a

     peeR RevieWS of oig opeRationS

peer review Of the sec OiG’s                            peer review Of the sec OiG’s
audit OperatiOns                                        investiGative OperatiOns
In accordance with the CIGIE quality control and        During the semiannual reporting period, SEC OIG
assurance	standards,	an	OIG’s	audit	functions	are	      did not have an external peer review of its investiga­
assessed by an external OIG audit team approxi­         tive	operations.	Peer	reviews	of	Designated	Federal	
mately every three years. The Legal Services Corpo­     Entity OIGs, such as SEC OIG, are conducted on a
ration (LSC) OIG conducted an assessment of the         voluntary basis. The most recent peer review of SEC
Office	of	Audit’s	system	of	quality	control	for	the	    OIG’s	investigative	operations	was	conducted	by	the	
period ending March 31, 2012. The review focused        U.S. Equal Employment Opportunity Commission
on whether SEC OIG established and complied             (EEOC) OIG. The EEOC OIG issued its report on
with a system of quality control that is suitably       SEC	OIG’s	investigative	operations	in	July	2007.	
designed to provide SEC OIG with a reasonable           This	report	concluded	that	SEC	OIG’s	system	of	
assurance of conforming with applicable profes­         quality for the investigative function conformed to
sional standards.                                       the	professional	standards	established	by	the	Presi­
                                                        dent’s	Council	on	Integrity	and	Efficiency	and	the	
On August 23, 2012, LSC OIG issued its report,          Executive Council on Integrity and Efficiency (now
concluding that SEC OIG complied with the system        CIGIE).
of quality control and that it was suitably designed
to provide SEC OIG with reasonable assurance            An investigative operations peer review of SEC OIG
of performing and reporting in conformity with          is scheduled for the first quarter of fiscal year 2014.
applicable government auditing standards in all
material respects. Federal audit organizations can
receive a rating of “pass,” “pass with deficiencies,”
or “fail.” SEC OIG received a “pass” rating, and
no recommendations were made. Further, there are
no outstanding recommendations from previous
peer reviews of our audit organization.

The peer review report is available on the SEC
OIG’s	website	at:	http://www.sec-oig.gov/Reports/
Other/FinalPeerReviewReport-SEC.pdf.




                                                        OCTOBER 1, 2012–MARCH 31, 2013                    |   29
              OIG cOntact InfOrmatIOn


          Help ensure the integrity of SEC operations. Report to the OIG suspected fraud, waste
          or abuse in SEC programs or operations as well as SEC staff or contractor misconduct.
          Contact the OIG by:

          phone	           Hotline          877.442.0854
                           Main Office      202.551.6061

          web-based        www.sec-oig.gov/ooi/hotline.html
          hotline


          fax	             202.772.9265

          mail	            Office of Inspector General
                           U.S. Securities and Exchange Commission
                           100 F Street, NE Washington, DC 20549–2977

          email	           oig@sec.gov



          Information received is held in confidence upon request. While the OIG encourages com­
          plainants to provide information on how they may be contacted for additional information,
          anonymous complaints are also accepted.




30   |   OIG SEMIANNUAL REPORT TO CONGRESS
                                                                         Semiannual
                                                                         Report to Congress
                                                                         October 1, 2012 to
                                                                         March 31, 2013




                                                             Office Of
                                                             inspectOr General




        Additional copies of this report may be obtained

        by contacting the Office of Inspector General at

        202.551.6061. This report is also available on the               U.S. SeCURITIeS And

                                                                         exChAnGe COMMISSIOn
        Inspector General’s website at www.sec-oig.gov.




OIG SAR cover_final.indd 1                                                                     5/2/13 3:51 PM
